0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of amici curiae the Ethics and Religious
Liberty Commission, National Association of
Evangelicals, and the Lutheran Church-Missouri
Synod in support of Petitioner in 20-639, Calvary
Chapel Dayton Valley v. Steve Sisolak, Governor of
Nevada, et al., was sent via Three Day Service to the
U.S. Supreme Court, Three Day and e-mail service to
the following parties listed below, this 10th day of
December, 2020:
David Andrew Cortman
Alliance Defending Freedom
1000 Hurricane Shoals Road, NE
Suite D-1100
Lawrenceville, GA 30043
(703) 390-774
dcortman@adflegal.org
Counsel for Petitioner

Aaron D. Ford
Attorney General
Craig A. Newby
Deputy Solicitor General
Office of the Nevada Attorney General
555 E. Washington Avenue, Suite 390
Las Vegas, NV 89101
cnewby@ag.nv.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
, Washington, DC 20005

Brian Hardy
Kathleen Wilde
Marquis Aurbach Coffing
10001 Park Run Drive
Las Vegas, NV 89145
bhardy@maclaw.com
kwilde@maclaw.com
Counsel for Respondents

Miles E. Coleman
Counsel of Record
Katie E. Towery
Elizabeth C. Edmondson
Nelson Mullins Riley & Scarborough, LLP
2 W. Washington St., Fourth Fl.
Greenville, SC 29601
(864) 373-2352
miles.coleman@nelsonmullins.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 10, 2020.

Do

aJ. Wolf U

Becker Gallagher Legal Pub�ing Inc.

8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

::;;z
� Public
D
Notary

�

[seal]

BIANCA BECKER

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

